No. _____

_

In the Supreme Court of the United States

MERLE DENEZPI,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED

IN FORMA PAUPERIS

Petitioner Merle Denezpi, through his attorney of record who was appointed
pursuant to the Criminal Justice Act by the Tenth Circuit Court of Appeals, and
pursuant to Rule 39.1 of this Court, respectively requests leave to proceed in forma

pauperis before this Court and to file the attached Petition for Writ of Certiorari to
the United States Court of Appeals for the Tenth Circuit without prepayment of filing
fees and costs.
In support of this motion, Petitioner states that he was found indigent by both
the district court and the Tenth Circuit pursuant to 18 U.S.C. ยง 3006A.

1

Dated this 26 th day of March 2021.
Respectfully submitted,

Theresa M. Duncan
Duncan Earnest LLC
P .0. Box 2769
Santa Fe, NM 87504
(505) 710-6586
teri@duncanearnest.com

Counsel for Petitioner Merle Denezpi
CJA Appointed

2

